                                      NATIONAL SCIENCE FOUNDATION
                                      OFFICE OF INSPECTOR GENERAL
                                         nBBTf'B nB T A n"TUTU
                                         V   L   I I V Y
                                                             ?Q
                                                           " I
                                                                TTflATTnhrc
                                                               IIU/III"I*U
                                                                 11.




                          CLOSEOUT MEMORANDUM

Case Number: A07070040                                                        Page 1of 1



    We randomly selected a CAREER proposal1 for a proactive review of proposals for
    plagiarism.2 An initial search found some copied text from three source documents.
    The source document from which the most copied text was taken is a web page from
    the PI'S university describing the university's programs for women and
    undergraduates in engineering. The PI copied a generic description of the
    university program, its goal, and a few of its activities. The other two source
    documents were authored by the PI'S thesis advisor, and the copied text was
    technical language used to define terms for use in theorems. It would be difficult to
    rephrase the definitions in a significant way.
    Given the small amount of copied text, the nature of the text, and the nature of the
    source documents, we concluded this copying is not a significant departure from
    accepted standards. Accordingly, this case is closed.




       1(footnote redacted).
       2Described on page 34 of our March 2006 Semiannual Report
    @ttp://~~~.nsf.gov/pubs/2006/oigmarch2006/oigmarch2006.pdf).
